■ ENTERED
KAREN L. MCKNIGHT, CLERK

4 ■

COMMONWEALTH OF KENTUCKY
•HOPKINS CIRCUIT COURT, DIV. 1
BY:
MADISONVILLE, KY 42431
INDICTMENT NO. 1 l-CR-249 & 12-CR-l 11

MAY 04 201?
jgpIT COURT

;

CECIL SALYERS'

MOVANT

v.
COMMONWEALTLI OF KENTUCKY

RESPONDENT
ORDER

!

This matter has come before the Court on numerous post-judgment issues including
a motion for a new trial and a motion for acquittal which was addressed by this Court
March 14, 2014, the defendant’s pro se motion for 11.42 relief and his request for counsel
to assist him in prosecution of post-judgment issues . Counsel was appointed to represent
the defendant on post-judgment motions and after review of the motions all matters pertain
to previous post-judgment motions counsel requested and was granted after hearing leave
to withdraw.
The Court has reviewed the pro se motion for relief pursuant to RCR11.42, however
finds no reference to any specific instanced of deficiency of counsel. The motion is
supported by conclusionary allegations.

Based on the foregoing IT IS ORDERED that the defendant’s request for a hearing
on this motion for relief pursuant to RCR 11.42, as well as his request for hearing on that
motion are DENIED.

A

This the

day of May, 2017.

__________ _

__

^JKmES C. BpSvNTLEY, (gtllEt JDDGE

\

V.

\

1

II

I

t]

s' *

• f

, ENTERED
KAREN L MCKNIGHT, CLERK

*x>

MAY VO 2018
COMMONWEALTH OF KENTUCKY
HOPKINS CIRCUIT COURT
CASE NO. ll-CR-249 & 12-CR-lll
COMMONWEALTH OF KENTUCKY

HOPKINS COUNfa^COURT

PLAINTIFF

VS.
CECIL SALYERS

DEFENDANT

ORDER SUPPORTING THE DENIAL OF MOVANT’S RCR 11,42 MOTION TO
VACATE

This matter comes before the Court on Movant Cecil Salyers’ Motion requesting this
Court to supplement its earlier rejection of his November 12, 2015 Motion to Vacate. The
complaint of the Motion was ineffective assistance of Trial and Appellant Counsel for failing to
raise evidentiary and procedural objections. On May 4, 2017, this Court denied Movant’s Motion
to Vacate. On May 15, 2017, Movant filed a Motion seeking additional facts and conclusions of
law pursuant to CR 52.02. The Court of Appeals has held an appeal of this matter in abeyance
—pending this -Court’s • ruling • on-Movant-’ s ■ GR 50:02 motion-seeking additional-facts -and—:-------conclusions of law, which are provided below.
A successful petition for relief under RCr 11.42 for ineffective assistance of counsel must
survive the dual prongs of “performance” and “prejudice” required by Strickland v.
Washington, 466 U.S. 668 (1984), adopted in Kentucky in Gall v. Commonwealth, 702 S.W.2d
37 (Ky. 1985). See also Parrish v. Commonwealth, 212 S.W.3d 161,168 (Ky. 2008). The
performance prong of Strickland requires that “[ajppellant must show that counsel's performance
was deficient. This is done by showing that counsel made errors so serious that counsel was not

1

:

(

functioning as the ‘counsel’ guaranteed the defendant by the Sixth Amendment, or that counsel's
representation fell below an objective standard of reasonableness.” Parrish at
168 (citing Strickland, 466 U.S. at 687-88) (internal quotations and citations omitted). The U.S.
Supreme Court and the Supreme Court of Kentucky have recognized that this is a very difficult
standard to meet:

;

■.

Judicial scrutiny of counsel's performance must be highly deferential.... [A] court
must indulge a strong presumption that counsel's conduct falls within the wide range
of reasonable professional assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged action might be considered
sound trial strategy. Appellant is not guaranteed errorless counsel or counsel that can
be judged ineffective only by hindsight, but rather counsel rendering reasonably
effective assistance at the time of trial.
Parrish at 168 (citing Strickland, 466 U.S. at 689) (internal quotations and citations
omitted). Addressing the prejudice pi:ong of Strickland, the Kentucky Supreme Court stated
cc

[ajppellant must show that the deficient performance prejudiced the defense.... The defendant

must show that there is a reasonable probability that, but for counsel's unprofessional errors, the
result of the proceeding would have been different.” Parrish at 169 (citing Strickland, 466 U.S.
at 687, 694) (internal quotations and citations omitted). Both prongs of Strickland must be met
before relief under RCr 11.42 can be given. Strickland, 466 U.S. at 687. Failure to make a
fruitless motion to suppress evidence does not constitute ineffective assistance of counsel.
Robbins v. Commonwealth, 719 S.W.2d 742, 743 (Ky. Ct. App. 1986). To find reversible error
due to a claim of ineffective assistance of counsel, the defendant must show that the motion to
suppress would have been successful. Sanders v. Commonwealth, 89 S.W.3d 380, 386 (Ky.
2002). The court cannot find counsel to have been ineffective in the absence of a showing of
actual prejudice resulting from counsel's inaction. Casey v. Commonwealth, 994 S.W.2d 18, 23

2

r
(Ky. Ct. App. 1999). As demonstrated by the foregoing holdings, the Movant has a heavy burden
that he must meet to prove ineffective assistance of counsel.
Movant alleges that Defense counsel ought to have raised KRE 404(b) objections to four
pieces of testimonial evidence offered by the Commonwealth. KRE 404(b) provides that
evidence of other crimes, wrongs, or acts is not admissible to prove the character of a person to
r '■

show action in conformity therewith. Such evidence is nonetheless admissible “if offered for
some other purpose, such as proof of motive, opportunity, intent, preparation, plan, knowledge,
identity, or absence of mistake or accident,” or if the evidence is “so inextricably intertwined
with other evidence essential to the case that separation of the two could not be accomplished
without serious adverse effect on the offering party.” KRE 404(b)(l)-(2). Each of the four pieces
of evidence that Movant identifies could have been justifiably offered under several of these
exceptions—most likely as evidence of proof of Movant’s motive, intent, opportunity,
preparation, and/or absence of mistake as to the other crimes charged.
Moreover, of the seven crimes for which Movant was convicted, all but one were
supported by evidence outside of that which Movant claims should have been suppressed.
Movant was convicted of (1) touching A. L.’s vagina; (2) touching A. L.’s breasts; (3) touching
M. C.’s breasts; (4) touching K. L.’s breasts; (5) inducing A. L. and M. C. to bathe together with
the bathroom door open; (6) inducing N. L. to touch C. H.’s breasts; and (7) giving alcohol to C.
H. All but one of these convictions were supported by victim testimony for which Movant has
not claimed a related error of counsel. The following is a non-exhaustive list detailing such
testimony.
In support of the first and second convictions, A. L. stated that Movant touched her “bad
spot” and breasts. In support of the first, second, and third convictions, M. C. stated that Movant
3

a

touched her “bad spot” and breasts, and that she witnessed Movant touch A. L. In support of the
fourth conviction, K. L. stated that Movant touched her breast while wearing a “smirk of
happiness.” In support of the sixth conviction, C. H. stated that Movant had N. L. mb aloe on C.
H.’s breasts while he watched. In support of the seventh conviction, C. H. testified that Movant
put alcohol in her Dr. Pepper. Movant does not identify a strategic error in connection with the
foregoing; only the testimony of Kelsie Conrad in support of the fifth conviction was identified
with a failure of counsel. We think the Commonwealth would likely have successfully justified
these four submissions over defense counsel’s objection by stating that the testimony was offered
to show Movant’s sexual motive, his opportunity for abusing the girls, his preparation for
subsequent acts of sexual assault by normalizing a lack of privacy, and/or absence of mistake in
support of several charges. The Commonwealth could also have reasonably claimed that the
testimony was inextricably intertwined with other evidence of Movant’s alleged crimes. See
KRE 404(b)(l)-(2). Even if the complained-of testimony had been suppressed, there was ample
supplementary evidence on which the jury could have relied.
Another ground in Movant’s Motion to Vacate is that counsel failed to argue with
specificity that admission of each of the four pieces of evidence constituted palpable error by this
Court which entitled Movant to a reversal. It is enough to say that trial courts give substantial
deference to counsel’s strategy regarding objections as a matter of course. Defense counsel may
have concluded, for example, that objecting to the admission of the foregoing testimony was
unlikely to result in suppression but would have wasted the Court’s time and risked further
drawing the jurors’ attention to damaging evidence. While appellate counsel should have offered
some reasonable support for her claim of palpable error on this point, we think it unlikely that

4

she would find convincing authority for the claim that this Court must unilaterally question
evidence that was arguably admissible under the exceptions at KRE 404(b)(1).
Movant also alleges that trial counsel failed to object when the Commonwealth Attorney
stated, after the verdict was read, that the sentences were meant to run consecutively when the
jury instructions had not included such details. It appears that defense counsel was caught off
guard by the unusual manner and timing of the statement after the verdict had already been read,
and his counsel called for a mistrial afterwards to attempt a remedy. A new evidentiary hearing,
calling defense counsel to explain his understandable confusion on this question is not necessary.
Movant also alleges that trial counsel was ineffective because he advised Movant that he
should not take a plea of five (5) years if the Commonwealth offered it. This was a hypothetical
exchange between Movant and Defense Counsel meant to show counsel’s faith in the strength of
Movant’s case. It is enough to say that a statement to one’s client that an acquittal is likely has no
effect on the verdict. Counsel was not ineffective for incorrectly predicting the outcome of his
client’s trial.
Movant also alleges that his appellate counsel was ineffective for failing to investigate
witnesses crucial to his defense. Movant’s proof for counsel’s inadequate preparation is that two
witnesses should have been asked certain questions and that two other, witnesses ought to have
been called to testify. In matters of trial conduct regarding witnesses, the above-mentioned
judicial deference given to the conduct of counsel is even greater because witnesses cannot be
completely controlled by counsel. As a result, the helpfulness of a witness’s testimony cannot be
guaranteed. Movant primarily complains that the witnesses were not asked about matters that he
thinks would have been helpful to his case. This may have been due to a genuine strategical
decision on counsel’s part such as avoiding a line of questioning that opens the door to harmful
5

v

S-"

I\

(
V

V-

character evidence or risking the loss of a helpful witness’s credibility. As to witnesses not
i

'

■

‘

called, Counsel may have likewise concluded that the elicited testimony would not have been
helpful or credible, or that the witnesses would cooperate sufficiently to aid the case. It is not
enough to say, for example, that a college student named Tina (last name not provided) who was
present at a party with Movant could have testified that she saw no sexual abuse at the party. It is
easy to second-guess counsel’s strategic decisions as to the credibility of witnesses and the
helpfulness of testimony after the fact. However, the Movant has not shown that counsel’s
conduct was objectively unreasonable and actually prejudicial to his case.
We cannot conclude based on the foregoing that Defense Counsel’s conduct was so
deficient that it did not function as the ‘counsel’ guaranteed by the Sixth Amendment. Similarly,
we do not find Appellate Counsel conduct constitutionally insufficient for failing to specifically
*

explain why reversal was required when this Court did not unilaterally reject a few pieces of
' arguably admissible evidence. As to his requests for other evidentiary hearings on the foregoing
issues, this Court finds the record sufficiently clear to resolve the issues raised.
IT IS HEREBY ORDERED AND AD JUDGED that this Court’s original denial of
Movant Cecil Salyers’ Motion to Vacate be supplemented with the foregoing. That Motion to
Vacate remains DENIED. Furthermore, as the record is sufficiently clear to resolve the issues
contained in his Motion to Vacate, Movant Cecil Salyers’s requests for various evidentiary

C

hearings to examine these issues are DENIED. This is a final and appealable Order and there is
no just cause for delay.
This the jO day of May, 2018.

AMES C. BRANTLEY CHlgF CIRCUIT JUDGE
6

\
:

t

RENDERED: JANUARY 10, 2020; 10:00 A.M
NOT TO BE PUBLISHED'

©omrnomtmiliff of Keitfucfeg
i •

NO. 2017-CA-000987-MR
CECIL SALYERS

APPELLANT

/

J

!.
:

v.

APPEAL FROM HOPKINS CIRCUIT COURT
HONORABLE JAMES C. BRANTLEY, JUDGE
ACTION NOS. 1 l-CR-00249 and 12-CR-OOl 11
i

COMMONWEALTH OF KENTUCKY

APPELLEE

r

\

OPINION
AFFIRMING

!

\
** s|ss|c ** ** * *

BEFORE: COMBS, DIXON, AND TAYLOR, JUDGES.
COMBS, JUDGE: Appellant, Cecil Salyers (Salyers),pro se, appeals from the
denial of his motion for RCr1 11.42 relief following his conviction of the sexual
abuse of several minor children. After our review, we affirm.

i

Kentucky Rules of Criminal Procedure.
I

r-

}

In Salyers’s direct appeal to the Supreme Court, the underlying facts
were set forth in that Court’s opinion as follows:
’

•

-

!

.

In 2005, . .. Salyers, Jr., met Alice Nolan, a single.
mother of four children, [pseudonyms are used for the
another and victims]. Although [Salyers] and Alice were
not romantically involved, he spent a significant amount
of time around her and her children. He took a
. particularly [sic] likening to the youngest daughter, April.
Salyers v. Commonwealth, No. 2014-SC-000186-MR, 2015 WL 2340368 *1. (Ky
May 14, 2015) (footnote omitted). The crimes at issue began after April moved
into Salyers’s residence to help care; for him following a heart attack. He was
charged with abusing:, April; her sister Nicole; two of April’s friends, Molly and
Kayla; and a friend, of Nicole, Christy.2
On September 28,2011, Appellant was indicted by
a Hopkins County Grand Jury in case number 1 l-CR-249
for sexually abusing April, Molly, Nicole, and Christy.
The indictment alleged three counts of first-degree sexual
abuse of a minor less than twelve years old, two counts
of first-degree sexual abuse of a minor less than sixteen
years old, five counts of using a minor in a sexual
performance, one count of indecent exposure, and one
count of unlawful transaction with a minor in the third
degree. More than six months later, on April 24, 2012, in
case number 12-CR-l 11, Appellant was indicted for the
second time. This indictment alleged that Appellant
committed first-degree sexual abuse against Kayla. The
two indictments were consolidated and tried together.

/

2 The victims are referred to by initials in the circuit court’s orders and in Appellant’s brief as
follows: April: A.L.; Nicole: N.L.; Molly: M.C.; Kayla: K.L. and Christy: C.H.
-2f

A Hopkins County Circuit Court found Appellant
guilty of the following seven crimes: four counts of firstdegree sexual abuse, including one count for each victim
with the exception of Nicole; two counts of using a minor
in a sexual performance; and third-degree.unlawful
transaction with a minor. The jury recommended a
sentence of forty years’imprisonment, which the trial
court summarily imposed.
Id. at *2. Salyers appealed as a matter of right. Our Supreme Court affirmed by
opinion rendered May 14, 2015.
On November 12, 2015, Salyers, pro se, filed an RCr 11.42 motion
alleging ineffective assistance of counsel. The circuit court appointed the
Department of Public Advocacy (DPA) to represent him. On October 24, 2016,
the DPA moved to withdraw.3 On February 1, 2017, the court granted the motion.
By an order entered on May 4, 2017, the circuit court denied Salyers’s
RCr 11.42 motion, reciting as follows:
The Court has reviewed the pro se motion for
relief pursuant to RCR 11.42, however finds no reference
to any specific instanced [sic] of deficiency of counsel.
The motion is supported by conclusionary [sic]
allegations.
1
Based on the foregoing IT IS ORDERED that the
defendant’s request for a hearing on this motion for relief

HDPA Invoked KRS (Kentucky Revised Statutes) 31.110(2)(c), which provides in relevant part
[I]if the department and the court of competent jurisdiction
determines that it is not a proceeding that a reasonable person with
adequate means would be willing to bring at his or her own
expense, there shall be no further right to be represented by
counsel under the provisions of this chapter.
-3-

pursuant to RCR 11.42, as well as his request for hearing
on that motion are DENIED.
(Emphasis original.)
On May 5, 2017, Salyers filed a motion for additional findings of facts
and conclusions of law pursuant to RCr 11.42(6) and CR4 52.02.
On June 9, .2017, Salyers filed a notice of appeal to this Court from
the order denying his RCr 11.42 motion. On April 10, 2018, this Court ordered
that Salyers’s appeal be held in abeyance pending a ruling on his CR 52.02 motion.
On May 10, 2018, the circuit court entered an order ruling on
Salyers’s motion and providing additional findings of factand conclusions of law.
Salyers had argued that trial counsel should have raised KRE5 404(b) objections to
four items of testimonial evidence offered by the Commonwealth. Addressing that
argument, the court explained that all of but one of the crimes of which Salyers

4 Kentucky Rules of Civil Procedure.'
5 Kentucky Rule of Evidence 404(b) provides:
. (b) Other crimes, wrongs, or acts. Evidence of other crimes,
wrongs, or acts is not admissible to prove the character of a person
in order to show action in conformity therewith. It may, however,
be. admissible:
(1) If offered for some other purpose, such as proof of
motive, opportunity, intent, preparation, plan, knowledge,
identity, or absence of mistake or accident; or
(2) If so inextricably intertwined with other evidence
essential to the case that separation of the two (2) could not
be accomplished without serious adverse effect on the
offering party.
'

-4-

was convicted were supported by other evidence. The court set forth a “nonJ

exhaustive list detailing such testimony,” which we shall summarize.
A.L.’ s testimony supported the first and second convictions (touching
A.L.’s vagina and touching her breasts); M.C.’s testimony also supported the first
and second convictions as well as the third conviction (touching M.C.’s breasts);
K.L.’s testimony supported the fourth conviction (touching K.L.’s breasts); C.H .’s
testimony supported the sixth and seventh convictions (inducing N.L. to touch
C.TI.’s breasts and giving alcohol to C.H.). The court noted that only the testimony
of another girl6 in support of the fifth conviction (inducing A.L. and M.C. to bathe
together with the bathroom door open) was identified with a failure of counsel.
The circuit court opined that the Commonwealth would have likely
prevailed over any objections “by stating that the testimony was offered to show
[Salyers’s] sexual motive, his opportunity for abusing the girls, his preparation for
subsequent acts of sexual assault by normalizing a lack of privacy, and/or absence
I

of mistake in support of several charges.” The court observed that the
Commonwealth could have reasonably argued that the evidence “was inextricably
intertwined with evidence of Movant’s other crimes. See KRE 404(b)( 1 )-(2).

6 According to Salyers’s memorandum in support of his RCR 11.42 motion, that individual was
not a victim. There was no KRE 404(b) objection made to her testimony that Salyers made her
take a bath with A.L. and M.C. with the bathroom door open.
-5-

f

Even if the complained of testimony had been suppressed, there was ample
supplementary evidence upon which the jury could have relied.”
The circuit court addressed Salyers’s claim that appellate counsel
failed to argue with specificity that admission of each of the four pi eces of
evidence constituted palpable error. The circuit court thought it unlikely that
appellate counsel “would find convincing authority” to support a claim where such
i

“evidence

, was arguably admissible under the exceptions as KRE 404(b)(1):”
Next, the court addressed Salyers’s allegation that:
[Tjrial counsel failed to object when the
Commonwealth Attorney stated, after the verdict was
read that the sentences were meant to run consecutively
when the jury instructions had not included such details.
It appears that defense counsel, was caught off guard by
the unusual manner and timing of the statement after the ■
verdict had already been read, and his counsel called for
a mistrial afterwards to attempt a remedy. A new
evidentiary hearing, calling defense counsel to explain
his understandable confusion on this question is not
necessary.
The circuit court rejected Salyers’s allegation that trial counsel was
•'

‘

!

■

ineffective because he advised Salyers not to take a plea of five years if the
Commonwealth offered it. The court explained that the exchange was hypothetical
and that trial counsel “was not ineffective for incorrectly predicting the outcome of
his client’s trial.”

-6-

The circuit court also rejected Salyers’s claim that trial counsel was
ineffective for failing to investigate, or adequately prepare certain witnesses. The
court noted the great deference afforded to counsel’s conduct regarding witnesses
because they cafinoi be completely controlled. As to Salyers’s complaints about
questions not asked or witnesses not called, the Court observed that it is easy to
second-guess strategic decisions, holding that Salyers failed to show that his
attorney’s conduct was objectively unreasonable and actually prejudicial.
The circuit court could not conclude that trial counsel’s conduct was
so deficient that he “did not function as counsel guaranteed by the Sixth
Amendment. Nor did the court find that appellate.counsel’s conduct was
constitutionally insufficient. As for Salyers’s request for an evidentiary hearing,
the court found “the record sufficiently clear to resolve the issues raised.”
On May 24, 2018, Salyers filed a motion in this Court for leave to
supplement his previously filed appeal if necessary after reviewing the circuit
court’s order of May 10,2018. By order of June 28, 2018, this Court passed the
' motion to this merits panel. In light of our decision herein, that the motion is
denied as moot, and an order denying will issue separately from this opinion.
Salyers raises multiple issues on appeal. Although the organization of
his arguments is disjointed, we shall address them in the order presented.
[T]to establish a claim for ineffective assistance of
counsel, a movant must meet the requirements of a two-7-

prong test by proving that: 1) counsel’s performance was
deficient, and 2) the deficient performance prejudiced the
defense. Strickland v. Washington, 466 U.S. 668, 104
S.Ct. 2052, 80 L.lid.2d 674 (1984).. .; accord Gail y.
f
Commonwealth, 702 S.W.2d 37 (Ky. 1985), cert, denied,
478 U.S. 1010, 106 S.Ct. 3311, 92 L.Pd.2d 724 (1986). ’
Pursuant to Strickland, the standard for attorney
perfomiance is reasonable, effective assistance. The
movant must show that his counsel’s representation fell
below an objective standard of reasonableness, and the
movant bears the burden of proof.In doing so, the
moyant must overcome a strong presumption that
counsel’s performance was adequate. Jordan v.
Commonwealth, 445 S.W.2d 878, 879 (Ky, 1969);
McKinney v. Commonwealth, 445 S.W.2d 874, 878 (Ky.
1969). Furthermore, “a court must indulge a strong
presumption that counsel’s conduct falls within the wide
range of reasonable professional assistahee; that is, the '
. defendant must overcome the presumption that, under
the circumstances, the challenged action ‘might be
j
considered sound trial strategy.’”. Strickland, 466 U.S. at
689, 104 S.Ct. at 2065 (quoting Michel v. Louisiana, 350
U.S. 91, 101, 76 S.Ct. 158, 164, 100 L.Ed. 83 (1955)).
“[T]he threshold issue is not whether [appellant]’s
attorney was inadequate; rather, it is whether he was so
manifestly ineffective that defeat was snatched from the
hands of probable victory.” United States v. Morrow
977 F.2d 222, 229 (6th Cir. 1992) ....
’ ■
Cherry v. Com., 545 S.W.3d 318, 322-23 (Ky. App. 2018) (Bold-face emphasis
deleted). “We review the trial court's denial of an RCr 11.42 motion for an abuse
of discretion.” Teague v. Com., 428 SiWJd 630, 633 (Ky. App. 2014).
Salyers’s first argument is that the trial court abused its discretion in
denying his RCr 11.42 motion without an evidentiary hearing. “If the record
refutes the claims of error, there is no need for an evidentiary hearing. A hearing is
-8-

also unnecessary where the allegations, even if true, would not be sufficient to
invalidate the conviction.” Harper v. Com., 978 S.W.2d 311, 314 (Ky. 1998)
(citations omitted). As set forth above, We agree with the circuit court’s analysis.
Accordingly, no evidentiary hearing was necessary.

-

Next, Salyers argues that trial counsel was ineffective in failing to
investigate, prepare, or properly examine four witnesses: M.C.’s mother; Tina,
whose last name was not provided; the older sister of A.L. and N.L.; and Michael
Riley, a school principal. However, the circuit court thoroughly addressed this
issue at pages 5-6 of its May 10, 2018, order as set forth above. We agree with its
analysis and adopt it as it if were our own
Salyers contends that trial counsel’s allegedly “bad advice” (i.e., that
he thought they could win in the context of asking Salyers if he would take five
years //offered) should constitute ineffective assistance of counsel. We agree with
the circuit court that this exchange was hypothetical and that counsel was not
ineffective for failure to accurately predict the trial’s outcome.
Next, under the heading “Argument!!/Salyers contends that the trial
court abused its discretion in denying his RCr 11.42 motion without findings of
fact or conclusions of law. This argument is moot in light of the trial court’s May
10, 2018, order providing additional findings and conclusions.

-9-

Salyers argues that trial counsel was ineffective in failing to object to
j.

• improper character evidence pursuant to KRE 404(b). The circuit court addressed
this issue in detail at pages 3-4 of its May 10, 2018, order as discussed above.
Again, we agree with the court’s analysis and adopt it as if it were our own.
.V

Next, Salyers contends that appellate counsel was ineffective for
failure to present adequate/sufficient arguments,on direct appeal in requesting

,

palpable error review of the KRE 404(b) evidence to which trial counsel failed to
object. “A movant will only be successful on IAAC[7] claims for ‘ignored issues’
which ‘ counsel must have omitted completely’ from the direct appeal.”. Jackson v.
Com., 567 S.W.3d 615, 619 (Ky. App. 2019) (citing Hollon v. Com., 334 S.W.3d
431, 437 (Ky. 2010)). We find no error.
Salyers’s next argument is that trial counsel was ineffective for
agieeing to allow Juror s [sic] to go back and modify sentence.” The circuit court
addressed that argument in its May 10, 2018, order and concluded that no
evidentiary hearing was necessary. The circuit court’s March 18, 2014, order
denying the motion for a new trial and motion for acquittal explains as follows:
[T]he jury originally returned two verdicts of guilty
against the defendant pursuant to Instructions 6 and 7 for
use of a minor in a sexual performance. They
recommended a sentence of twenty (20) years under
Instruction 6 and a sentence of fifteen (15) years under
Instruction 7 with a recommendation the sentences run
7 Ineffective assistance of appellate counsel.
-10-

concurrently with one another for a total of twenty (20)
years. Likewise, the jury returned a guilty verdict
pursuant to Instructions 2, 3, 4 & 5 for crimes of sexual
abuse wi th a recommended sentence of ten (10) years
each under Instructions 2, 3, & 4 and five (5) years under
Instruction 5. The jury recommended that these
sentences run consecutively for a total of 3 5 years. It
became apparent to the Court that we had not considered
this possible, scenario arid the. jury made no
recommendation whether the twenty (20) years
: recommended sentence under Instructions 6 and 7 and
> the 35 year recommended sentence under Instructions 2,
3, 4 and.5 should run consecutively for a total of 55 years
or run concurrently for a total of 35 years. The Court
held a bench conference with the attorneys and both
attorneys agreed that that the jury Should be sent back
into deliberation to determine if the two recommended
sentences should run concurrently or consecutively. The
jury reentered deliberation and returned a
recommendatiori that they run consecutively.!8]
Prior to the bench conference,.. the prosecutor, .
from his counsel table, asked in the presence of the jury
whether the sentences should run consecutive or
concurrent. The defense counsel took issue with that
statement contending the statement was inappropriate
and a new trial should be granted. This is a difficult issue
for the court, but it does not appear that even if the
prosecutor’s comment was inappropriate, that a new trial
8 The circuit court order entered December 10, 2013, reflects that:
The defendant received a sentence of ten (10) years on three counts
of First Degree Sexual Abuse, under 12. and five (5) years for one
count of First Degree Sexual Abuse over 12 and the jury
recommended that the sentences run consecutive to each other but
by law that would not exceed twenty (20) years. They
recommended'twenty (20) years on one count of Use of a Minor
and fifteen (15) years on the second count concurrent for twenty
(20) years but consecutive to the sentence for First Degree Sexual
Abuse, thus the sentence was 40 years....
(Record on Appeal, pp. 511-12).
-11-

should be granted. The law has been in the
Commonwealth that if a judgment is silent as to
concurrent or consecutive sentence, the sentence
presumed concurrent. Had the jury not been sent out to
make a determination as to whether the sentence should
be concurrent or consecutive, the sentence would have
- been presumed concurrent. This would have obviously
alleviated any possible error by the prosecutor’s
comment, but after the comment was made defense
counsel agreed the j ury should be returned to deliberate
to make a recommendation as to concurrent or
consecutive sentences.
(Record on Appeal, pp. 531-32).

,

On March 18, 2014, the circuit court entered its judgment and
sentence and sentenced Salyers to a total term of imprisonment of forty (40) years
from both indictments. We agree with the circuit courtthat there would no
purpose in having an evidentiary hearing. Moreover, Salyers cannot demonstrate
prejudice under Strickland. The circuit court has the discretion to determine
whether a defendant should serve sentences concurrently or consecutively.
Howard v. Com., 496 S.W.3d 471, 475 (Ky. 2016); KRS 532.110.
Salyers’s last argument is that the circuit court’s granting of the
DPA’s motion to withdraw as counsel was an abuse of discretion and that it was
A

.

*

■

arbitrary, unfair, and unreasonable. We disagree. “There is no constitutional right
to a post-conviction collateral attack on a criminal conviction or to be represented
.

by counsel at such a proceeding where it exists.” Fraser v. Com., 59 S.W.3d 448,
451. (Ky. 2001).
-12-

i.

<A

I

*

;'

Therefore, we AFFIRM the Flopkins Circuit Court
ALL CONCUR.

Cl

\

BRIEF FOR APPELLANT

BRIEF FOR APPELLEE

*

Cecil Salyers, Pro Se
LaG range, Kentucky

Andy Beshcar
Attorney General
James C. Shackelford
Assistant Attorney General
Frankfort, Kentucky

!

.:
V.

\
.!
:
*■

J

\

13

:

&

. 2

2020-SC-000048-D
(2017-CA-000987)

CECIL SALYERS, JR.-

MO VA-NT
• A

, HOPKINS CIRCUIT COURT
2011 -CR-00249 & 2012-CR-00111

V.
i

>

• COMMONWEALTH OF KENTUCKY
\

RESPONDENT

i

ORDER DENYING DISCRETIONARY REVIEW
>

!\

■

~^

~

I--

"—:——

The motion for review of the decision of the Court of Appeals iIS

\
t.

denied.
ENTERED: July / .2020.
/
i

EF JUSTICE
i

■

